             WithumSmith+Brown
             A Professional Corporation
             Certified Public Accountants and Consultants




U.S. CONSUMER PRODUCT SAFETY COMMISSION

              Performance Audit of
 Information Technology Investment Management




             September 30, 2012
                                                             Prepared by WithumSmith+Brown PC
                          For the Consumer Product Safety Commission – Office of Inspector General




Table of Contents
 

Executive Summary ................................................................................................... 1-2

Observations ............................................................................................................. 3-5

Recommendation .......................................................................................................... 5

Appendices            ................................................................................................................ 6

         Appendix A - Background ................................................................................... 7

         Appendix B – Objectives, Scope, Methodology, and Criteria ........................... 8-9

         Appendix C – Acronyms and Abbreviations ...................................................... 10

         Appendix D – CPSC Response......................................................................... 11
WithumSmith+Brown
A Professional Corporation
Certified Public Accountants and Consultants




8403 Colesville Road, Suite 340
Silver Spring, Maryland 20910-6331 USA                          September 30, 2012
301 585 7990 . fax 301585 7975
www.withum.com                                                 Ms. Inez Moore Tenenbaum
                                                               Chairman, Consumer Product Safety Commission
Additional Offices in New Jersey
New York and Pennsylvania
                                                               4330 East West Highway
                                                               Bethesda, Maryland 20814

                                                                                                      EXECUTIVE SUMMARY

                                                               We were engaged by the Consumer Product Safety Commission (CPSC), Office
                                                               of Inspector General (OIG), to conduct a follow-on performance audit relative of
                                                               CPSC’s Information Technology (IT) investment management processes, using
                                                               the Government Accountability Office’s (GAO) Information Technology
                                                               Investment Management (ITIM) framework. We previously reported on our
                                                               assessment of CPSC’s ITIM maturity in August 2010. In that report we
                                                               concluded that CPSC had achieved Stage 1, and outlined 11 specific steps for
                                                               achieving Stage 2, and we recommended the Chairman of the CPSC direct the
                                                               Chief Information Office to develop a plan of action and milestones for the
                                                               completion of the remaining stage 2 processes and subsequent stages.

                                                               The ITIM framework is a maturity model composed of five progressive stages of
                                                               maturity that an agency can achieve in its information technology investment
                                                               management capabilities. The maturity stages are cumulative; that is in order to
                                                               attain a higher stage of maturity, the agency must have institutionalized all of the
                                                               requirements for that stage in addition to those for all of the lower stages. The
                                                               framework can be used to assess the maturity of an agency’s investment
                                                               management processes as a tool for organizational improvement. For each
                                                               maturity stage, the ITIM describes a set of critical processes that must be in
                                                               place for the agency to achieve that stage.

                                                               This report presents the results of our work conducted to address the
                                                               performance audit objectives as specified by the OIG. Our audit objectives were
                                                               to perform a rigorous evaluation of CPSC’s IT investment management
                                                               processes in order to determine which of the five progressive stages of maturity
                                                               in IT investment management capabilities most accurately describes the CPSC’s
                                                               ITIM framework, and to provide a road map that CPSC can follow to improve its
                                                               processes. As our report further describes, we identified the following as a result
                                                               of the work we performed:

                                                               CPSC has continued to take steps to mature its IT investment management
                                                               processes, and has completed substantially all of the critical practices and key
                                                               processes described in Stage 2 of GAO’s ITIM hierarchy.




A member of HLB International. A world-wide organization of accounting firms and business advisers.
                                                         Prepared by WithumSmith+Brown PC
                      For the Consumer Product Safety Commission – Office of Inspector General



As a result of these and other activities, we have concluded that CPSC has reached Stage 1 of the five-
stage IT investment maturity model as defined by GAO. CPSC has implemented most of the key
practices and critical processes that constitute Stage 2. Based on our assessment, we outlined two
specific actions in the Observations section of our report that CPSC needs to perform to achieve maturity
Stage 2.

Our work was performed during the period September 2011 to July 2012. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives.

Subsequent to our audit fieldwork in August 2012, CPSC lost one of its key personnel related to IT
investment management, to another agency. Our audit does not reflect the impact, if any, this loss will
have on the IT investment management practices at CPSC, as we have not performed any procedures to
evaluate CPSC’s responses to this loss. Therefore, there is the risk that this loss could materially affect
CPSC IT investment management posture.

CPSC management has indicated it has already begun taking steps to address our recommendations
and is developing plans to further mature certain practices identified in our report.




                                                    2
                                                          Prepared by WithumSmith+Brown PC
                       For the Consumer Product Safety Commission – Office of Inspector General

OBSERVATIONS
Prior Assessment of CPSC
In our August 2010 report “Performance Audit of Information Technology Investment Management”,
WS+B reported that CPSC had reached Stage 1 of the five stage investment maturity model as defined
by the GAO, and that it had implemented several of the key practices and critical processes that
constitute Stage 2. We outlined 11 specific actions that CPSC need to perform to achieve Stage 2. We
recommended the Chairman of CPSC direct the CIO to develop a Plan of Action and Milestones
(POA&M) to achieve the remaining Stage 2 processes as well as subsequent stages.

GAO’s ITIM maturity model framework1offers organizations a road map for improving their IT investment
management processes in a systematic and organized manner. These process improvements are
intended to:
     improve the likelihood that investments will be completed on time, within budget, and with the
        expected functionality;
     promote better understanding and management of related risks;
     ensure that investments are selected based on their merits by a well-informed decision-making
        body;
     implement ideas and innovations to improve process management; and
     increase the business value and mission performance of investments.

GAO’s ITIM is subdivided into a hierarchy. Each maturity stage consists of critical processes that are
composed of a number of key practices. Each of the four maturity stages beyond Stage 1 is a plateau of
well defined critical processes. Each stage builds upon the lower stages and enhances an organization’s
ability to manage its IT investments. The five maturity stages represent the steps toward achieving a
mature, comprehensive ITIM process. Each critical process contains a set of key practices that, when
fulfilled, implement the critical process needed to attain a given maturity stage. The key practices are the
tasks that must be performed in order to implement and institutionalize a critical process effectively.

The five maturity stages are as follows:
    Stage 1 – Creating investment awareness
    Stage 2 – Building the investment foundation
    Stage 3 – Developing a complete investment portfolio
    Stage 4 – Improving the investment process
    Stage 5 – Leveraging IT for strategic outcomes

Stage 2 of the ITIM Maturity includes five critical processes:
1) Instituting the Investment Board
2) Meeting Business Needs
3) Selecting an Investment
4) Providing Investment Oversight
5) Capturing Investment Information




1
  GAO’s Information Technology Investment Management (ITIM): A Framework for Assessing and Improving Process
Maturity (GAO‐03‐ 
394G)

                                                       3
                                                         Prepared by WithumSmith+Brown PC
                      For the Consumer Product Safety Commission – Office of Inspector General


CPSC’s IT investment portfolio includes seven investments, of which four have been defined as Major
and three as Non-Major. Below is a summary of funding for these seven investments:

                                                     FY 2010         FY 2011         FY 2012           Total
     Planning, Development, Capital Spending       $11,795,000     $ 9,908,000      $ 6,711,000     $28,414,000
     Operations and Maintenance                     12,678,000      12,289,000       14,061,000      39,028,000
     Total                                         $24,473,000     $22,197,000      $20,772,000     $67,442,000

The seven investments consist of approximately 24 separate projects.


Current Assessment of CPSC

We performed a follow-up independent assessment of CPSC’s ITIM maturity under contract with CPSC’s
Office of Inspector General (OIG). We found that CPSC had accomplished almost all of the additional
key practices and critical processes of Stage 2. Some of the key new investment management activities
we found during our review that CPSC has implemented include:

1.    A full business case per OMB requirement developed for the CPSRMS investment and a new
      investment, CPSC International Trade Data System (ITDS).

2.    The Investment Review Board (IRB) was trained on IRB’s portfolio decision making and budgeting
      processes in April and May 2011, as part of the IT portfolio “Rating and Ranking” processing, leading
      to the finalization of the agency’s FY 2012 IT portfolio.

3.    Approved changes to the IRB membership in December 2011 based on CPSC organization changes
      in July 2011.

4.    CPSC has formally documented its IT investment process in the CPIC Guide, which includes
      policies and procedures for selecting new IT proposals.

Based on our assessment, we noted that CPSC had satisfactorily completed Stage 1 and had
implemented 37 of the 38 key practices within the five critical processes defined as Stage 2. There is one
key practice that CPSC had not fully implemented:

1)       Meeting Business Needs
         Integrated Project Teams (IPT) including representative end-users have been implemented on
         the ITDS, CPSRMS, and CPSC.gov Redesign Projects. However, we noted that CPSC has not
         yet included end users on all projects within the remaining major investments including
         Infrastructure and CIS.

The following table summarizes our evaluation of the status of CPSC’s achievement of the five critical
processes representing maturity stage two:

                          Table 1: Summary of Maturity Stage Two Critical Process Ratings
                                                                                  Key       Key Practices
Critical Process                    Rating                                     Practices      Executed        %
Instituting the Investment Board    Implemented                                    8              8         100%
Meeting Business Needs              Not implemented, but improvements underway     7              6          86%
Selecting an Investment             Implemented                                    10            10         100%
Providing Investment Oversight      Implemented                                    7              7         100%
Capturing Investment Information    Implemented                                    6              6         100%
Total                                                                              38            37          97%



                                                      4
                                                        Prepared by WithumSmith+Brown PC
                     For the Consumer Product Safety Commission – Office of Inspector General

CPSC continued to make improvements in its investment management processes during FY 2011 and
through the date of our fieldwork, demonstrating execution of an additional 15 of the 38 Stage 2 key
practices since our last report in August 2012. Because ITIM maturity stages are cumulative where each
stage is dependent upon completion of the previous stage, CPSC has not been able to fully implement all
the Stage 2 critical processes and key practices.

As a result of these and other activities, we have concluded that CPSC has reached Stage 1 of the five-
stage ITIM model as defined by the GAO. CPSC has implemented almost all of the key practices and
critical processes that constitute Stage 2, and many of those in Stage 3.

Without adequate ITIM practices and procedures in place, CPSC may not be able to minimize risk and
maximize investment return and thus it increases the chances that investments may not meet mission
needs in the most cost-effective and efficient manner.

Observations on Stage 3
Although CPSC has not achieved Stage 2, during our fieldwork, we did perform some preliminary
analysis of Stage 3 for the purposes of developing additional recommendations and to lay the foundation
of gathering evidence for an analysis of Stage 3. Based on this limited work, once Stage 2 is achieved,
we believe CPSC will be able to demonstrate significant progress toward achieving Stage 3. However,
because of the cumulative nature of the ITIM maturity framework, we did not perform a complete analysis
of Stage 3 since Stage 2 had not been achieved. Therefore, we are not proposing a detailed roadmap for
achieving Stage 3 at this time.

Additionally, it would be premature to perform an analysis of or propose a roadmap for Stages 4 and 5.
GAO research has shown that agency efforts to improve investment management capabilities should
focus on implementing all lower stage practices before addressing the higher stage practices.

Recommendation

In order to ensure the remaining Stage 2 key practices and critical processes are executed timely and
CPSC’s investment management capability is strengthened, we recommend the Chairman of the
Consumer Product Safety Commission direct the Chief Information Officer:

        1. Establish procedures to ensure that users participate in project management throughout an
           IT project’s life cycle for all major investments. We recommend that CPSC provide additional
           resources to enable formation of an IPT or designated liaison within the program area to
           facilitate understanding of business needs for all projects within the Infrastructure and CIS
           investments. Internal user signoffs should be formally documented to evidence participation
           of the user departments.

        2. Establish periodic business alignment review discussion for ongoing IT projects as part of
           regular IRB operations (from Management’s self assessment).


We appreciate the cooperation and courtesies that CPSC personnel extended to us during this audit.


Sincerely,




                                                   5
                                          Prepared by WithumSmith+Brown PC
       For the Consumer Product Safety Commission – Office of Inspector General




Appendices




                                 6
                                                        Prepared by WithumSmith+Brown PC
                     For the Consumer Product Safety Commission – Office of Inspector General


                                                                                       Appendix A
Background

The Consumer Product Safety Commission was created in 1972 as an Independent Federal Regulatory
Agency, whose mission is to protect the public from unreasonable risks of serious injury or death from
thousands of types of consumer products under the agency’s jurisdiction. CPSC has jurisdiction over
more than 15,000 kinds of consumer products. CPSC recalls products that present a significant risk to
consumers either because the product may be defective or violates a mandatory standard issued by
CPSC.

CPSC is headed by five Commissioners, one of which serves as Chairman of the Commission, who are
assisted by an Executive Director and various other executive officials, including a Chief Information
Officer (Director of Technology Services), and a Chief Financial Officer (Director of Financial
Management, Planning, and Evaluation). CPSC, with approximately 500 employees, is headquartered in
Bethesda, Maryland and has laboratories in Rockville, Maryland, as well as about 100 investigators,
compliance officers, and consumer information specialists spread throughout the country.

The Consumer Product Safety Improvement Act of 2008 requires, that “the Inspector General of the
Commission “conduct reviews and audits to assess . . .the Commission’s capital improvement efforts,
including improvements and upgrades of the Commission’s information technology architecture and
systems and the development of the database of publicly available information on incidents involving
injury or death.”




                                                  7
                                                        Prepared by WithumSmith+Brown PC
                     For the Consumer Product Safety Commission – Office of Inspector General


                                                                                         Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

The objectives of our audit were to determine which of the five stages ITIM maturity most accurately
describes CPSC’s ITIM framework; conduct a rigorous evaluation of the CPSC’s IT investment
management process; report the results of our assessment that can be easily understood; and develop
recommendations for CPSC for improving it process.


Scope
We conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provided a reasonable basis for our findings and conclusions
based on our audit objectives. We conducted our fieldwork at the CPSC Headquarters in Bethesda,
Maryland between September 2011 and July 2012.

Our performance audit was not designed to, and we did not, perform a financial audit of the amounts
obligated or expended by CPSC.

This performance audit did not constitute an audit of financial statements in accordance with Government
Auditing Standards. WS+B was not engaged to, and did not, render an opinion on CPSC’s internal
controls over financial reporting or over financial management systems (for purposes of OMB’s Circular
No. A-127, Financial Management Systems). WS+B cautions that projecting the results of our evaluation
to future periods is subject to the risks that controls may become inadequate because of changes in
conditions or because compliance with controls may deteriorate.


Methodology

To accomplish our audit objectives, we obtained an understanding of the Consumer Product Safety
Improvement Act of 2008, which requires the Inspector General of CPSC to conduct reviews and audits
to assess CPSC’s capital improvement efforts including the IT architecture and systems. We also
reviewed GAO’s ITIM Framework for Assessing and Improving Process Maturity. We conducted
interviews with CPSC officials from the Office of Information and Technology Services and performed a
walkthrough of the relevant processes.        Further, we reviewed CPSC investment management
documentation, agency information, budgets, and other relevant documents. We judgmentally selected
certain key processes for testing, and evaluated the audit evidnce supporting the execution of the key
process.

A performance audit includes gaining an understanding of internal controls considered significant to the
audit objectives, testing controls, and testing compliance with significant laws, regulations, and other
requirements. For this assignment, CPSC’s IT investment management controls were considered the
specific internal controls to ensure the process works effectively. We evaluated those controls
accordingly to determine how well they contribute to carrying out the IT investment management process
model.




                                                   8
                                                         Prepared by WithumSmith+Brown PC
                      For the Consumer Product Safety Commission – Office of Inspector General

                                                                            Appendix B (cont.)

Objectives, Scope, Methodology, and Criteria

Criteria

We used the following criteria to accomplish our audit:

   Consumer Product Safety Improvement Act of 2008

   GAO’s Information Technology Investment Management (ITIM): A Framework for Assessing and
    Improving Process Maturity (GAO-04-394G)

   Office of Management and Budget (OMB) Circular A-11

   OMB Circular A-130 Revised, “Management of Federal Information Resources”.

   OMB Circular A-123, “Management Accountability and Control”




                                                     9
                                                     Prepared by WithumSmith+Brown PC
                  For the Consumer Product Safety Commission – Office of Inspector General

                                                                             Appendix C

Acronyms and Abbreviations


CPIC                Capital Planning and Investment Control

CPSC                Consumer Product Safety Commission

CPSIA               Consumer Product Safety Improvement Act of 2008

CPSRMS              Consumer Product Safety Risk Management System

EA                  Enterprise Architecture

EVM                 Earned Value Management

GAO                 Government Accountability Office

IPT                 Integrated Project Team

IT                  Information Technology

ITDS                International Trade Data System

ITIM                Information Technology Investment Management

IRB                 Investment Review Board

OIG                 Office of Inspector General

OMB                 Office of Management and Budget




                                                  10
                                                        Prepared by WithumSmith+Brown PC
                     For the Consumer Product Safety Commission – Office of Inspector General

                                                                                            Appendix D
Consumer Product Safety Commission Response

   CPSC staff has reviewed the Performance Audit: Information Technology Investment
   Management (ITIM) Assessment Notification of Findings and Recommendations (NFR) dated
   July 26, 2012, and appreciates the acknowledgement of its accomplishments over the past year, as
   well as the recommendations for improvement in the year ahead.

   The Commission has been working diligently to further mature its ITIM processes and has begun
   addressing deficiencies associated with the specific recommendations contained in the NFR:

       1. Establish procedures to ensure that users participate in project management throughout an
          IT project’s life cycle for all major investments.

   CPSC staff has updated its systems development lifecycle (SDLC) guide to further require
   projects to involve business users throughout the system lifecycle, from initiation phase into
   operations and maintenance, and through disposition. The acknowledgement of a need for an
   integrated project team (IPT) has been adopted into standard operating procedures. Business
   users, including project leads or other stakeholders, now have full transparency into the projects
   by receiving periodic status.

   Currently, all projects require business users to participate in the project lifecycle events
   including initiation and business goal definition. Business representatives routinely partake in
   tactical design reviews and UAT, which demonstrate how business needs map to functional and
   nonfunctional requirement specifications. In the instance of projects on the CIS investment, users
   define needs to transition to the new solution; prioritize and validate requirements; provide input
   regarding the “bundling” of functionality; and approve and sign-off on requirements and project
   completion.

   In order to further bolster user participation and ensure business user requirements are reflected in
   smaller, more tactical projects found in the Infrastructure investment (such as, networking
   hardware implementation and acquisitions of network switches), CPSC staff will modify its
   project initiation form to include a project health checkpoint and a project closeout component.
   The Project Management Office (PMO) will oversee adherence to the process and report to IT
   Management and the Investment Review Board (IRB) user involvement throughout the project
   lifecycle.

       2. Establish periodic business alignment review discussion for ongoing IT projects as part of
          regular IRB operations.

   CPSC staff holds weekly project portfolio intake reviews where IT Management weighs the
   portfolio of work against stated business objectives and resources, thus supporting the IRB in
   effectively managing information technology as a strategic resource and business process enabler.

   In order to mature this practice even further, CPSC staff will modify its project dashboard to
   include notations on the IT project’s alignment to CPSC’s business needs. The dashboard is
   provided to IRB members for their regularly scheduled meetings, and an agenda item will be
   added with dedicated time to review and discuss whether the projects are in alignment or if
   modifications to the portfolio are appropriate.


                                                    11
